BREDHOFF & KAISER, P.L.L.C.
Bruce R. Lerner
Andrew D. Roth
Roger Pollak
Anne Ronnel Mayerson
Leon Dayan
Devki K. Virk
Robert Alexander
Matthew Clash-Drexler
Abigail V. Carter
Kathleen Keller
Joshua B. Shiffrin
Jenifer A. Cromwell
Ramya Ravindran
Jacob Karabell
Caitlin Kekacs

Attorneys & Counselors
805 Fifteenth Street NW – Suite 1000
Washington, D.C. 20005
(202) 842-2600 TEL
(202) 842-1888 FAX
www.bredhoff.com

Adam Bellotti
Joshua A. Segal
Elisabeth Oppenheimer
April H. Pullium
Joshua A. Rosenthal
Dana M. Krohn
——————

Richard F. Griffin, Jr.
Deva A. Kyle
Tzvi Mackson*
Of Counsel

Elliot Bredhoff
(1921 – 2004)

Henry Kaiser
(1911 - 1989)

——————

Robert M. Weinberg
Julia Penny Clark
Jeremiah A. Collins
Mady Gilson
John M. West
Senior Counsel
*Admitted only to New York bar.
Application pending for District of
Columbia bar; practice supervised
directly by principals of the firm.

August 3, 2021
By Electronic Filing
Hon. Scott S. Harris
Clerk
Supreme Court of the United States
1 First Street N.E.
Washington, DC 20543-0001
Re:

Bennett v. AFSCME Council 31 et al., No. 20-1603

Dear Mr. Harris:
I write pursuant to Supreme Court Rule 30.4, as counsel for respondents
AFSCME Council 31 and AFSCME Local 672 in the above-captioned matter, to
request a 30-day extension of time for respondents to file Briefs in Opposition to the
pending Petition for Certiorari. This request is being made because the Court issued
a request for response in this matter on July 27, 2021, and I have numerous work
responsibilities and a week of personal vacation already scheduled for August 2021.
The requested enlargement of time would extend the due date for all respondents to
September 27, 2021.
I have consulted with Jeffrey M. Schwab, counsel for Petitioner, who does not
oppose the requested 30-day extension.
Thank you for your consideration of this matter.

Page 2

Sincerely,
/s/ Jacob Karabell
Jacob Karabell
cc:

Jeffrey M. Schwab, Counsel for Petitioner (by e-mail)
Caitlin Frazier Satterly, Counsel for Respondent Moline-Coal Valley School
District No. 40 (by e-mail)
Frank Bieszczat, Counsel for State Respondents (by e-mail)

